The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                             OFFICE OF INSPECTOR GENERAL
                                     WASHINGTON, DC 20436

VIA ELECTRONIC TRANSMISSION



September 30, 2011                                                       OIG-JJ-020


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit of Patch
Management, OIG-AR-11-17. In finalizing the report, we analyzed management’s comments on
our draft report and have included those comments in their entirety in Appendix A.

This report contains four recommendations for corrective action. In the next 30 days, please
provide me with your management decisions describing the specific actions that you will take to
implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission

                                                       Audit Report



                                                Table of Contents
Results of Audit............................................................................................. 1

Areas for Improvement ................................................................................ 1
   Area for Improvement 1: Use a single scanning tool to scan the Commission’s entire
   network. .......................................................................................................................... 1

   Area for Improvement 2: Implement a regular patching schedule for all servers. ....... 2

Management Comments and Our Analysis ............................................... 3
Scope and Methodology................................................................................ 4

Appendix A: Management Comments on Draft Report......................... A




OIG-AR-11-17                                                    -i-
                      U.S. International Trade Commission

                                       Audit Report


                                   Results of Audit
Has the USITC implemented an effective, comprehensive system to maintain patch
levels?

Yes. The USITC has implemented an effective, comprehensive system to maintain
patch levels.

The Commission uses a vulnerability scanner to scan the majority of its network
infrastructure on a weekly basis. The Commission’s 455 workstations, which are the
most vulnerable and represent most of the systems on ITCNet, were missing a total of
868 patches, for an average of 1.9 High Severity patches per workstation. This is an
improvement when compared to an audit last year that identified USITC workstations
were missing an average of 80 High Severity patches. Many of the missing workstation
patches were due to outdated systems used to connect to the National Business Center.
This software requires that the Commission accept the risk of using outdated software to
perform financial management functions. The seven workstations used for financial
reporting exhibited an average of 16 missing High Severity patches per workstation,
significantly skewing the total patching score. These seven workstations compose only
1.5% of the Commission’s workstations, but resulted in 13% of the risk. The
Commission has made commendable progress in implementing an effective patch
management program.

We identified some areas that would support the Commission’s efforts to improve its
patching capabilities by consolidating its scanning efforts into a single tool that scans the
entire network, and by implementing a patching schedule for all systems on its network.




                             Areas for Improvement

                                  Area for Improvement 1:

         Use a single scanning tool to scan the Commission’s entire network.


The Commission should use a single tool to scan its entire network for vulnerabilities. It
currently uses a tool to scan its workstations and specific network address ranges that
host some of the servers on ITCNet; however, it is not using the same tool to scan all
servers or ITCNet’s entire network space.

OIG-AR-11-17                                -1-
                      U.S. International Trade Commission

                                      Audit Report


The scanning tool has not been configured to perform complete scans of the
Commission’s networks. The Commission’s internal network space has over 65,000 IP
addresses, and only subsets of these IP addresses are scanned. In addition, the tool has
not been configured to scan 40 non-Windows servers.

If the Commission does not scan the entirety of its network space, some systems could
have unexpected but valid IP addresses on ITCNet and not be scanned.

Recommendation 1:

   Shrink the available network IP space to make it possible for all IP space to be
   scanned on a weekly basis.

Recommendation 2:

   Use one tool to scan all infrastructure.



                                  Area for Improvement 2:

                Implement a regular patching schedule for all servers.


To reduce its level of risk, the Commission has implemented regular patching for most
systems, including Windows workstations and servers, and Linux servers.

We reviewed the patch status of 36 Linux servers. Thirty-four of these were missing an
average of 5.9 packages, and the remaining two were missing 58 and 276 packages.
During the audit, we found that different operational groups were implementing different
server patching standards, resulting in the disparity between the majority of the servers
and these two unpatched servers.

While most systems are being patched regularly, these two servers remained in
production in an unpatched status for months, significantly increasing the risk to the
network.

Recommendation 3:

   Use a single vulnerability scanning tool to fully scan all IP network ranges in ITCNet.


OIG-AR-11-17                                  -2-
                     U.S. International Trade Commission

                                     Audit Report


Recommendation 4:

   Patch all systems on a regular basis.



              Management Comments and Our Analysis
On September 27, 2011, Chairman Deanna Tanner Okun provided management
comments on the draft audit report. The Chairman agreed with our assessment that there
are two areas for improvement, and recognized that the Commission can further improve
its effective patch management system by implementing the recommendations detailed in
the two areas for improvement. The Chairman’s response is provided in its entirety as
Appendix A.




OIG-AR-11-17                               -3-
                     U.S. International Trade Commission

                                     Audit Report


                            Scope and Methodology
Scope:
           The scope of this audit included all systems on all networks managed by the
           U.S. International Trade Commission.

Methodology:

       1. Collect data identifying all network assets.
       2. Collect existing vulnerability scans from all available network scanners.
       3. Perform analysis of vulnerability scans, identifying patching patterns and
          potential outliers.
       4. Perform delta analysis of network assets versus scanning ranges.
       5. Identify systems not being scanned or patched consistently.


We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-17                               -4-
               U.S. International Trade Commission

                           Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-11-17                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
